App. 1
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 18-13594
Non-Argument Calendar

D.C. Docket No. l:17-cv-00087-MW-GRJ

KENNETH FERNANDEZ JOHNSON, JR.,
Plaintiff-Appellant,
versus
SADIE DARNELL,
Sheriff,
DANIEL ORLANDO CRUZ,
Deputy Sheriff,
VICTOR PINO-DIAZ,
Deputy Sheriff,
ALACHUA COUNTY,
Government Entity,
Defendants-Appellees.

Appeal from the United States District Court
for the Northern District of Florida

(August 21, 2019)

App. 2
Before MARTIN, NEWSOM and BLACK, Circuit Judges.
PER CURIAM:
Kenneth Fernandez Johnson, Jr., appeals the dis­
trict court’s dismissal of his pro se second amended
complaint alleging constitutional violations against
Alachua County Sheriff’s Deputies Daniel Orlando
Cruz and Victor Pino-Diaz, in their individual and of­
ficial capacities, and Alachua County Sheriff Sadie
Darnell, in her official capacity, under 42 U.S.C. § 1983.
In addition to concluding that Johnson’s second
amended complaint failed to state a claim on which re­
lief could be granted, the district court concluded Dep­
uties Cruz and Pino-Diaz were entitled to qualified
immunity as to the claims brought against them in
their individual capacities.
On appeal, Johnson argues that the district court
erred in dismissing his complaint because his allega­
tions were sufficient to state a claim for false arrest,
false imprisonment, due process violations, fabrication
of evidence, failure to intervene, malicious prosecution,
and defamation, as well as a Monell1 claim against
Darnell. After review,2 we affirm.
1 Monell v. Dep’t ofSoc. Servs., 436 U.S. 658, 690 (1978) (sub­
jecting municipalities and local government units to suit under
§ 1983 where “the action that is alleged to be unconstitutional im­
plements or executes a policy statement, ordinance, regulation, or
decision officially adopted and promulgated by that body’s officers”).
2 We review de novo a district court’s ruling on a Rule
12(b)(6) motion to dismiss, accepting all factual allegations as
true and viewing the facts in the light most favorable to the plain­
tiff. Edwards v. Prime, Inc., 602 F.3d 1276,1291 (11th Cir. 2010).

App. 3
I. BACKGROUND
Johnson’s claims all ultimately stem from his ar­
rest for fleeing or attempting to elude law enforcement.
Briefly, the second amended complaint—along with
various public court filings of which the district court
took judicial notice—establish that Deputy Cruz was
on foot patrol when he observed a white Toyota Camry
fail to come to a complete stop. He conducted a traffic
stop, during which the driver, while ostensibly remov­
ing his license from his wallet, drove the vehicle away
from Deputy Cruz before abandoning it. Upon search­
ing the vehicle, officers discovered a Florida Driver’s
License with Johnson’s name on it. Two officers also
identified Johnson, from his license picture, as the
driver, based on their contact with him during the traf­
fic stop.
Johnson eventually was charged, via an Infor­
mation, with fleeing or attempting to elude, and an ar­
rest warrant was issued for his arrest. Subsequent to
Johnson’s arrest, the State of Florida entered a nolle
prosequi after determining that Johnson did not com­
mit the charges as alleged, presumably because they
determined he had not been the driver of the vehicle.
II.

DISCUSSION

As an initial matter, Johnson has waived and
abandoned any challenge to the district court’s ruling
that Deputies Cruz and Pino-Diaz were entitled to
qualified immunity, as he failed to make any argument
regarding this point in either his objections to the

App. 4
magistrate judge’s report and recommendation (R&R),
or his brief on appeal. See 11th Cir. R. 3-1 (“A party
failing to object to a magistrate judge’s findings or rec­
ommendations contained in a[n] [R&R] . . . waives the
right to challenge on appeal the district court’s order
based on unobjected-to factual and legal conclu­
sions. .. .”); Timson v. Sampson, 518 F.3d 870, 874
(11th Cir. 2008) (“[I]ssues not briefed on appeal by a
pro se litigant are deemed abandoned.”). Because the
district court’s ruling as to qualified immunity is suffi­
cient to support the dismissal of the claims brought
against Deputies Cruz and Pino-Diaz in their individ­
ual capacities, we need not address these claims fur­
ther.
As to the claim against Deputies Cruz and PinoDiaz in their official capacities, we agree with the dis­
trict court that Johnson’s second amended complaint
failed to state a claim as to any of the causes of action
he identified. With the exception of his claims for ma­
licious prosecution and defamation, all of Johnson’s
claims against Cruz and Pino-Diaz challenge his arrest
for fleeing or attempting to elude law enforcement.
Johnson essentially challenged the legitimacy of the
warrant issued for his arrest, alleging Cruz and PinoDiaz falsely identified him, fabricated evidence and
statements, and did not conduct a full investigation.
He did not, however, specifically allege what evidence
was fabricated. These vague and conclusory allega­
tions are insufficient to plausibly raise a constitutional
challenge to his arrest. See Bell Atl. Corp. v. Twombly,
550 U.S. 544,555 (2007) (noting that, while a complaint

App. 5
does not need detailed factual allegations, one that
merely provides “a formulaic recitation of the elements
of a cause of action” is inadequate); Paez v. Mulvey, 915
F.3d 1276,1286 (11th Cir. 2019) (stating that, to hold a
non-arresting officer liable for providing false infor­
mation in a warrant affidavit, a plaintiff must show (1)
there was “an intentional or reckless misstatement or
omission”; and (2) “probable cause would be negated if
the offending statement was removed or the omitted
information included”).
As to Johnson’s claim for malicious prosecution, he
failed to allege facts that would plausibly suggest Cruz
or Pino-Diaz were the legal cause of the proceeding
against him. Specifically, as noted above, he failed to
allege any facts concerning the substance of the evi­
dence or statements Cruz or Pino-Diaz fabricated. See
Kingsland v. City of Miami, 382 F.3d 1220, 1234 (11th
Cir. 2004) (stating that, to establish a federal mali­
cious-prosecution claim, a plaintiff must prove, among
other things, the elements of the common-law tort of
malicious prosecution, which include showing the de­
fendant was the legal cause of the original proceeding).
As to Johnson’s claim for defamation, he alleged
only that Cruz and Pino-Diaz’s unspecified fabrica­
tions in the warrant application resulted in his name
and picture being posted on Alachua County’s Most
Wanted list. But a valid claim for defamation under
Florida law would need to allege that the defendants
themselves were responsible for publishing the defam­
atory material—here the Most Wanted list—not that
something they did indirectly led to the publication of

App. 6
that material. See Turner u. Wells, 879 F.3d 1254,1262
(11th Cir. 2018) (laying out the elements of defamation
under Florida law).
Finally, Johnson similarly failed to state a plausi­
ble Monell claim. To state a Monell claim, a plaintiff
must show: “(1) that his constitutional rights were vio­
lated; (2) that the municipality had a custom or policy
that constituted deliberate indifference to that consti­
tutional right; and (3) that the policy or custom caused
the violation.” McDowell v. Brown, 392 F.3d 1283,1289
(11th Cir. 2004). Because, as discussed above, Johnson
has not plausibly alleged that Cruz or Pino-Diaz vio­
lated his constitutional rights, he necessarily cannot
establish the first element of a Monell claim. Moreover,
his allegations that Cruz and Pino-Diaz acted accord­
ing to a policy or custom of deliberate indifference to
constitutional rights are too conclusory to plausibly
state a claim. See Twombly, 550 U.S. at 555.
III.

CONCLUSION

For the reasons discussed above, we affirm the dis­
trict court’s dismissal of Johnson’s second amended
complaint for failure to state a claim.
AFFIRMED.

App. 7
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF FLORIDA
GAINESVILLE DIVISION
KENNETH JOHNSON, JR.,
Plaintiff,
Case No. I:17cv87MW/GRJ

v.
SADIE DARNELL, et al.,
Defendant.

ORDER ACCEPTING REPORT
AND RECOMMENDATION
(Filed Aug. 2, 2018)
This Court has considered, without hearing, the
Magistrate Judge’s Report and Recommendation, ECF
No. 35, and has also reviewed de novo the objections of
Defendant Darnell, ECF No. 36, and Plaintiff Johnson,
ECF No. 37. Accordingly,
IT IS ORDERED:
The report and recommendation is accepted and
adopted, over the parties’ objections, as this Court’s
opinion. The Clerk shall enter judgment stating, “De­
fendants’ Motion to Dismiss Plaintiff’s Amended Com­
plaint, ECF No. 29, is GRANTED, and Plaintiff’s
Amended Complaint, ECF No. 8, is DISMISSED.” In
so stating, this Court recognizes that Alachua County
and the Alachua County Sheriff’s Office are not one in
the same. The Clerk shall close the file.

App. 9
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF FLORIDA
GAINESVILLE DIVISION
KENNETH JOHNSON, JR,
Plaintiff,
CASE NO.
l:17-cv-87-MW-GRJ

v.
SADDIE [sic] DARNELL, et al.
Defendants.

REPORT AND RECOMMENDATION
(Filed Jul. 13, 2018)
This matter is before the Court on ECF No. 29,
Defendants’ Motion to Dismiss Plaintiff’s Second
Amended Complaint. Plaintiff filed a response, ECF
No. 34, and the motion is therefore ripe for review. For
the reasons explained below, it is recommended that
Defendants’ motion to dismiss be granted for failure to
state a claim upon which relief may be granted and
based on qualified immunity.
I. INTRODUCTION
Plaintiff, a pro se non-prisoner litigant, initiated
this case in April 2017 by filing a pro se complaint un­
der 42 U.S.C. § 1983, asserting claims for defamation,
false arrest, fabrication of evidence, malicious prosecu­
tion, and Monell claims against four defendants. ECF
No. 1. After direction from the Court, Plaintiff filed two

App. 10
amended complaints in an attempt to sufficiently state
claims against Defendants. ECF Nos. 6, 8.
Plaintiff’s second amended complaint purports to
raise claims for malicious prosecution, fabrication of
evidence, due process violations, failure to intervene,
defamation, and false imprisonment against Alachua
County Deputies Daniel Orlando Cruz and Victor Pino
Diaz, as well as a Monell claim against Sheriff Sadie
Darnell.1 As relief, Plaintiff requests $7,000,000 in
general damages and $1,000,000 in punitive damages
against the deputies. ECF No. 8.
The following facts alleged in the second amended
complaint provide the background for Plaintiff’s
claims.2 On May 20,2016, Deputy Cruz was on foot pa­
trol when he observed a white Toyota Camry fail to
come to a complete stop. He then conducted a traffic
1 Plaintiff also named the Alachua County Sheriff’s Depart­
ment and Alachua County as defendants in this case, but because
Plaintiff named Sheriff Darnell in her official capacity, the Court
declined to serve them. ECF No. 11 at 1 n.l.
2 In addition to the factual allegations asserted in Plaintiff’s
second amended complaint, the Court may take judicial notice of
public court filings “without converting the motion to dismiss into
a motion for summary judgment.” Horne v. Potter, 392 F. App’x
800, 802 (11th Cir. 2010) (noting that the district court “properly
took judicial notice” of documents filed in another case because
such documents “were ‘capable of accurate and ready determina­
tion by resort to sources whose accuracy could not reasonably be
questioned’ ”); Bryant v. Avado Brands, Inc., 187 F.3d 1271, 1280
(11th Cir. 1999) (noting that the district court may take judicial
notice of public records at the dismissal stage). Accordingly, vari­
ous background facts obtained from public court filings are also
included to present a more comprehensive picture and analysis.

App. 11
stop and spoke with the driver, who then began to get
his license from his wallet. The driver then began to
slowly drive away and eventually accelerated away
from Deputy Cruz. After the driver abandoned his ve­
hicle, a Florida Driver’s License was located on top of
the center console of the vehicle, which had Plaintiff’s
name. Two officers (unnamed in the affidavit) also
identified Plaintiff based on their contact with him
during the traffic stop. Plaintiff was then charged by
Sworn Complaint with fleeing and eluding. See State
of Fla. v. Johnson, No. 01-2016-CF-001808-A (Alachua
County Ct.) (Sworn Complaint Affidavit); ECF No.
29-1.
An Information was then filed on June 15, 2016,
charging Plaintiff with fleeing or attempting to elude,
and a capias was issued for Plaintiff’s arrest. Plaintiff
was arrested on this warrant on August 1, 2016. But
on November 18, 2016, the State of Florida entered a
nolle prosequi after determining that Plaintiff did not
commit the charges as alleged. See State of Fla. v.
Johnson, No. 01-2016-CF-001808-A (Alachua County
Ct.) (Information; Capias; Arrest Form; Case Action
Report: Nolle/No Info Filed); ECF No. 29-1.
According to Plaintiff, Deputy Cruz and Deputy
Pino-Diaz falsely identified him and then falsely im­
prisoned him and maliciously prosecuted him for flee­
ing and eluding without probable cause and when the
Florida statutory elements for the crime were not met.
Plaintiff says that the deputies acted with malice and
willful indifference to his constitutional rights, partic­
ularly with regard to fabricating false sheriff reports

i

App. 12
and evidence as well as failing to conduct a full inves­
tigation by failing to check for fingerprints inside the
abandoned vehicle. Plaintiff additionally alleges that
this conduct was the result of policies and practices of
the Alachua County Sheriff’s Department and a fail­
ure to train officers. Based upon their wrongful accu­
sation, Plaintiff says he appeared on the Alachua
County Most Wanted list for a crime he did not commit.
ECF No. 8 at 7-16.
II. STANDARD OF REVIEW
Determining whether a complaint should be dis­
missed under Rule 12(b)(6) of the Federal Rules of
Civil Procedure for failing to state a claim upon which
relief may be granted turns on whether the plaintiff
has alleged sufficient plausible facts to support his
claims. BellAtl. Corp. v. Twombly, 550 U.S. 544 (2007);
see Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009). (“To sur­
vive a motion to dismiss, a complaint must contain suf­
ficient factual matter, accepted as true, to ‘state a claim
to relief that is plausible on its face.’” (quoting
Twombly, 550 U.S. at 570)). “A claim has facial plausi­
bility when the plaintiff pleads factual content that al­
lows the court to draw the reasonable inference that
the defendant is liable for the misconduct alleged.” Iq­
bal, 556 U.S. at 677.
This pleading standard is flexible, in line with
Rule 8’s requirement to provide fair notice to the de­
fendant of the plaintiff’s claim and the grounds upon
which it rests. Swierkiewicz u. Sorema, 534 U.S. 506

App. 13
(2002). A complaint does not need detailed factual al­
legations to survive a motion to dismiss, but Rule 8 “de­
mands more than an unadorned, the-defendantunlawfully-harmed-me accusation.” Iqbal, 556 U.S. at
678. And “[a] pleading that offers ‘labels and conclu­
sions’ or ‘a formulaic recitation of the elements of a
cause of action will not do.’” Id. (quoting Twombly, 550
U.S. at 555).
Further, although “a pro se litigant is required to
comply with the rules of procedure,” Kabbaj v. Obama,
568 F. App’x 875, 880 (11th Cir. 2014), the Eleventh
Circuit has stated that “pro se pleadings are held to a
less strict standard than pleadings filed by lawyers
and thus are construed liberally.” LaCroix u. Western
Dist. ofKentucky, 627 F. App’x 816,818 (11th Cir. 2015)
(quoting Alba v. Montford, 517 F.3d 1249, 1252 (11th
Cir. 2008)).
III.

DISCUSSION

Defendants argue that Plaintiff’s complaint
should be dismissed for the following reasons. First,
Defendants argue that Plaintiff’s complaint should be
dismissed as [sic] is an impermissible shotgun plead­
ing. Second, Defendants argue that Plaintiff’s com­
plaint should be dismissed because Plaintiff failed to
allege facts to support any of his claims against any
Defendant and because he was arrested pursuant to a
valid capias. Lastly, Defendants Cruz and Pino-Diaz
argue that they are entitled to qualified immunity.

App. 14
A. Plaintiff’s pro se complaint, although im­
perfect, does not constitute an impermissible
shotgun pleading.
Defendants first argue that Plaintiff’s complaint
should be dismissed as an impermissible shotgun
pleading. More specifically, they state that Plaintiff
does not specify which count is brought against which
Defendant and that the first paragraph of each Count
incorporates each prior paragraph of the complaint.
Additionally, Defendants state that Plaintiff’s counts
are actually the re-framing of the same allegations as
separate causes of action. They also state that they are
unable to determine which claims Plaintiff intends to
bring and against whom. Lastly, they argue that Plain­
tiff’s complaint does not contain a short and plain
statement of the claims as required by Rule 8(a), so it
should be dismissed. ECF No. 29 at 3-4.
The Eleventh Circuit has identified four types of
shotgun pleadings:
The most common type—by a long shot—is a
complaint containing multiple counts where
each count adopts the allegations of all pre­
ceding counts, causing each successive count
to carry all that came before and the last
count to be a combination of the entire com­
plaint. The next most common type, at least
as far as our published opinions on the subject
reflect, is a complaint that does not commit
the mortal sin of re-alleging all preceding
counts but is guilty of the venial sin of be­
ing replete with conclusory, vague, and im­
material facts not obviously connected to any

\

App. 15
particular cause of action. The third type of
shotgun pleading is one that commits the sin
of not separating into a different count each
cause of action or claim for relief. Fourth, and
finally, there is the relatively rare sin of as­
serting multiple claims against multiple de­
fendants without specifying which of the
defendants are responsible for which acts or
omissions, or which of the defendants the
claim is brought against.
Weiland u. Palm Beach Cty. Sheriff’s Office, 792 F.3d
1313,1321-23 (11th Cir. 2015). Regardless of the type
of shotgun pleading, “ [t] he unifying characteristic of all
types of shotgun pleadings is that they fail to one de­
gree or another, and in one way or another, to give the
defendants adequate notice of the claims against them
and the grounds upon which each claim rests.” Id. at
1323.
Plaintiff’s complaint is imperfect, but because he
is a pro se litigant this Court must liberally construe
his claims. While it is true that each of Plaintiff’s
counts starts with, “Each of the paragraphs of this
Complaint is incorporated as if restated fully here in
[sic],” each count also includes the facts relevant to
that particular claim. As a result, Defendants are not
left guessing which facts form the basis of each count.
Additionally, although Plaintiff does not specifi­
cally state which Defendant is responsible for which
conduct, there are only three Defendants in this case—
two deputies and the Alachua County Sheriff. The ma­
jority of the counts specifically state that Plaintiff is

App. 16
bringing the claim against “the Defendant Deputies,”
which clearly refers to Defendants Cruz and Pino-Diaz.
The only other claim is Plaintiff’s Monell claim, which
is obviously brought against the Alachua County Sher­
iff in her official capacity, as she is the only proper de­
fendant for Plaintiff’s Monell claim. Thus, each
Defendant is able to discern which counts are brought
against them.
The Court, therefore, cocncludes [sic] that Plain­
tiff’s complaint, although imperfect, provides Defend­
ants “adequate notice of the claims against them and
the grounds upon which each claim rests.” Welland,
792 F.3d at 1323. Accordingly, the Court declines to dis­
miss Plaintiff’s complaint as an impermissible shot­
gun pleading.
B. Plaintiff’s factual allegations are insuffi­
cient to state a claim for false imprisonment,
false arrest, fabrication of evidence, due pro­
cess violations, and malicious prosecution.
Defendants next argue that Plaintiff has provided
insufficient factual allegations to support his claims
for relief. More specifically, Defendants argue that
there are insufficient facts to plausibly establish that
the Defendant Deputies lacked probable cause for
Plaintiff’s arrest, maliciously sought his prosecution,
or fabricated false evidence. Further, with regard to the
fabrication of evidence, Defendants argue that Plain­
tiff failed to identify what evidence was allegedly fab­
ricated. Ultimately, they state that “[t]he complete

App. 17
absence of specific factual allegations to support the
claims in Plaintiff’s Second Amended Complaint re­
quire its dismissal.” ECF No. 4 at 4-7.
The central claims in Plaintiff’s complaint involve
his allegedly false arrest resulting from the fabrication
of evidence. “An arrest without probable cause violates
the Constitution and provides a basis for a Section
1983 claim, but the existence of probable cause at the
time of arrest is an absolute bar to a subsequent constitutional challenge to the arrest.” Williams v. Allen,
No. 6:17cv00242-ORL-31DCI, 2017 WL 1653744, at
*4-*5 (M.D. Fla. May 2, 2017) (citing Brown v. City of
Huntsville, Ala., QOS F.3d 724,734 (11th Cir. 2010)). Ad­
ditionally, “an arrest and detention pursuant to a fa­
cially valid warrant will not support a false arrest or
false imprisonment claim.” Id.
When the named defendants are not the arresting
officers, as is the case here, “the plaintiff must show
that the defendants knowingly provided false, material
information leading to the plaintiff’s arrest and deten­
tion.” Id. (citing Mead v. McKeithen, 571 F. App’x 788,
791 (11th Cir. 2014) (“[W]here falsified evidence pro­
vided by an officer is necessary to substantiate the
probable cause for a plaintiff’s arrest, that officer can
be held liable.”)). “Therefore, Plaintiff must sufficiently
allege that the warrant was not facially valid, or that
(1) Defendants—as the non-arresting officers—inten­
tionally or recklessly made false statements or omis­
sions in procuring the arrest warrant, and (2) that said
false statements or omissions were necessary to the
.finding of probable case [sic].” Id. (citing Holland v.

App. 18
City of Auburn, Ala., 657 F. App’x 899, 903 (11th Cir.
2016)).
With regard to whether there was facial validity
for the procurement of the warrant, Defendants assert
that “Plaintiff essentially argues that there was no
probable cause for his arrest because he ‘did not com­
mit’ the crime for which he was charged, and the State
Attorney’s Office dismissed the charges.” But, they ar­
gue, “[t]his is insufficient to overcome the fact that he
was arrested pursuant to a facially valid capias.” ECF
No. 29 at 8-9.
The record in Plaintiff’s state-court case reflects
that a capias was issued based on a sworn affidavit
from Deputy Cruz. According to the affidavit, a driver’s
license with Plaintiff’s name on it was found in the
abandoned car, and the picture on the license looked
like the individual stopped by Deputy Cruz. As a re­
sult, the capias for Plaintiff was issued. See State of
Fla. v. Johnson, No. 01-2016-CF-001808-A (Alachua
County Ct.) (Sworn Complaint Affidavit; Capias); ECF
No. 29-1.
Because there was a facially valid capias, to state
a claim for false arrest against Defendants he must al­
lege that Defendants intentionally or recklessly made
false statements or omissions in procuring the arrest
warrant and that the false statements were necessary
to the finding of probable cause. In Plaintiff’s com­
plaint, however, he states only that Defendants Cruz
and Pino-Diaz fabricated evidence, including false
sheriff reports and other statements. According to

App. 19
Plaintiff, they knowingly fabricated this evidence to af­
fect the determination of whether there was probable
cause. Further, Plaintiff says that this fabricated evi­
dence resulted in his false arrest and false imprison­
ment. ECF No. 8.
Although Plaintiff alleges that the Defendant
Deputies fabricated evidence and statements, in the
form of false sheriff reports, Plaintiff does not identify
what false information was put in the reports or why
that information was false. Rather, Plaintiff has pre­
sented nothing more than conclusory statements about
false evidence, statements, and reports. Plaintiff, there­
fore, has failed to allege fact [sic] demonstrating that
Defendants intentionally or recklessly made false
statements or omissions in procuring the arrest war­
rant and that the false statements were necessary to
the finding of probable cause.
Accordingly, Plaintiff’s claims for false arrest,
false imprisonment, due process violations, and fabri­
cation of evidence based on this set of facts are due to
be dismissed for failure to state a claim upon which re­
lief may be granted. Cf. Williams, 2017 WL 1653744, at
*4-*5 (dismissing a false arrest claim where the plain­
tiff failed to “present any factual allegations regarding
the nature of the alleged ‘false facts’ or why such facts
were false”).
Defendants also argue that Plaintiff failed to al­
lege sufficient facts to establish a claim for malicious
prosecution. “To establish a federal claim for malicious
prosecution under § 1983, a plaintiff must prove (1) the

App. 20
elements of the common law tort of malicious prosecu­
tion, and (2) a violation of [his] Fourth Amendment
right to be free from unreasonable seizures.” Kingsland v. City of Miami, 382 F.3d 1220, 1234 (11th Cir.
2004) (citing Wood v. Kesler, 323 F.3d 872, 881 (11th
Cir. 2003), cert, denied, 540 U.S. 879 (2003)).
Under Florida law, a plaintiff must establish
each of six elements to support a claim of ma­
licious prosecution: (1) an original judicial
proceeding against the present plaintiff was
commenced or continued; (2) the present de­
fendant was the, legal cause of the original
proceeding; (3) the termination of the original
proceeding constituted a bona fide termina­
tion of that proceeding in favor of the present
plaintiff; (4) there was an absence of probable
cause for the original proceeding; (5) there
was malice on the part of the present defend­
ant; and (6) the plaintiff suffered damages as
a result of the original proceeding.
Id. (citing Durkin u. Davis, 814 So. 2d 1246, 1248 (Fla.
Dist. Ct. App. 2002) (citing Burns v. GCC Beverages,
Inc., 502 So. 2d 1217 (Fla. 1986))). “The failure of a
plaintiff to establish any one of these six elements is
fatal to a claim of malicious prosecution.” Alamo RentA-Car, Inc. v. Mancusi, 632 So. 2d 1352, 1355 (Fla.
1994) (emphasis added).
With regard to the element requiring a plaintiff
to establish that a police officer was the legal cause
of the original proceeding, a plaintiff must show that
the officer had something to do with the decision to

App. 21
prosecute or that the officer improperly influenced that
decision. Williams u. Miami-Dade Police Dep’t, 297 F.
App’x 941, 947 (11th Cir. 2008). “The intervening acts
of the prosecutor . .. judge, and jury—assuming that
these court officials acted without malice that caused
them to abuse their powers—each break the chain of
causation unless plaintiff can show that these inter­
vening acts were the result of deception or undue pres­
sure by the defendant policemen.” Barts v. Joyner, 865
F.2d 1187,1195 (11th Cir. 1989); see Eloy v. Guillot, 289
F. App’x 339, 340-42 (11th Cir. 2008) (plaintiff estab­
lished a § 1983 claim where the arresting officer alleg­
edly fabricated evidence against plaintiff); Williams,
297 F. App’x at 947 (police officer’s alleged act of fabri­
cating evidence, which resulted in the prosecutor being
presented with false and misleading evidence, satisfies
the common law element that the officer was the legal
cause of the original prosecution).
But, as discussed above, Plaintiff failed to allege
any facts concerning the substance of the evidence or
information that Defendants fabricated. As a result,
Plaintiff has failed to allege that Defendants were the
legal cause of the proceeding, as required. See Hill v.
Lee Cty. Sheriff’s Office, No. 2:ll-cv-242-FTM-29, 2013
WL 4080323, at *3 (M.D. Fla. Aug. 13, 2013) (“[T]he
general rule is that if the defendant merely gives a
statement to the proper authorities, leaving the deci­
sion to prosecute entirely to the uncontrolled discre­
tion of the officer . . . the defendant is not regarded as
having instigated the proceeding.”).

App. 22
Because Plaintiff failed to allege sufficient facts to
satisfy all the elements for a malicious prosecution
claim, Plaintiff’s malicious prosecution claim is also
due to be dismissed. See Williams, 2017 WL 1653744,
at *5-6 (dismissing Plaintiff’s malicious prosecution
claim for failure to state a claim where “Plaintiff [did]
not allege any facts concerning the form or substance
of the evidence or information she claims Defendants
fabricated”).3
C. Defendants Cruz and Pino-Diaz are enti­
tled to qualified immunity.
Lastly, Defendants Cruz and Pino-Diaz argue that
they are entitled to qualified immunity. Specifically,
the Defendant Deputies contend that they acted rea­
sonably in preparing a warrant affidavit for Plaintiff’s
arrest based on their positive identification of Plaintiff
after finding Plaintiff’s driver’s license in the aban­
doned car. Further, they assert that Plaintiff has failed
to show that qualified immunity is inappropriate. ECF
No. 29 at 9-11.
“[Government officials performing discretionary
functions generally are shielded from liability for civil
damages insofar as their conduct does not violate
3 Because Plaintiff has failed to state a claim for malicious
prosecution, fabrication of evidence, due process violations, false
imprisonment, and false arrest, it follows that Plaintiff has failed
to state a claim for failure to intervene to prevent any of that same
conduct because he has failed to state a claim that any of his
rights were actually violated, which would have warranted inter­
vention.

App. 23
clearly established statutory or constitutional rights of
which a reasonable person would have known.” Harlow
v. Fitzgerald, 457 U.S. 800,818 (1982). Once defendants
establish they were performing discretionary func­
tions, the burden shifts to the plaintiff to show that
qualified immunity is not appropriate. Gonzalez v.
Reno, 325 F.3d 1228, 1234 (11th Cir. 2003) (citing
Vinyard v. Wilson, 311 F.3d 1340,1346 (11th Cir. 2002)).
Qualified immunity protects mistaken judgements but
does not shield the plainly incompetent. Malley v.
Briggs, 475 U.S. 335, 343 (1986).
It is undisputed that Defendants Cruz and PinoDiaz, deputies of the Alachua County Sheriff’s Office,
were governmental officials. Additionally, it is undis­
puted that preparing a warrant affidavit constitutes a
discretionary function of these deputies. Because De­
fendant Deputies were governmental officials perform­
ing discretionary functions at all relevant times, the
burden shifts to Plaintiff to show that qualified im­
munity is not appropriate.
To determine whether qualified immunity is ap­
propriate, a court must consider two factors: (1)
whether the alleged facts show the officer’s conduct vi­
olated a constitutional right; and (2) whether the right
was clearly established. Person v. Callahan, 555 U.S.
223, 236 (2009). A district court is entitled to exercise
its sound discretion in deciding which prong of this in­
quiry to address first. Id. at 236.

App. 24
As discussed above, Plaintiff has failed to show
that the Defendant Deputies violated his constitu­
tional rights because he has failed to state a claim for
false arrest, false imprisonment, fabrication of evi­
dence, and malicious prosecution against them. But
even if Plaintiff had sufficiently alleged a claim for
false arrest against the Defendant Deputies, they
would still be entitled to qualified immunity.
An officer who causes an unconstitutional arrest
by applying for an arrest warrant is entitled to quali­
fied immunity unless “the warrant application is so
lacking in indicia of probable cause as to render official
belief in its existence unreasonable.” Malley, 475 U.S.
at 344-45. “[T]he appropriate standard for an allega­
tion of unlawful arrest is whether ‘a reasonably welltrained officer in [defendant’s] position would have
known that his affidavit failed to establish probable
cause and that he should not have applied for the war­
rant.’” Tillman v. Coley, 886 F.2d 317, 320 (11th Cir.
1989) (quoting Garmon v. Lumpkin Cty., Georgia, 878
F.2d 1406,1410 (11th Cir. 1989)).
In this case, Plaintiff has failed to show that the
warrant application was lacking in any facts establish­
ing probable cause or that a reasonable officer in De­
fendants’ position should not have applied for the
warrant because he would have known that the affida­
vit failed to establish probable cause. To the contrary,
the warrant affidavit reflects that Defendant Deputies
believed probable cause existed to file an affidavit to
arrest Plaintiff based on their interactions with the

App. 25
driver on scene and the existence of Plaintiff’s driver’s
license found in the abandoned car.4
Accordingly, the Court concludes that the Defend­
ant Deputies are entitled to qualified immunity be­
cause their mistake in misidentifying Plaintiff based
on his driver’s license located in the vehicle and the
similarities between the picture on the driver’s license
and the driver they briefly interacted with at the scene
was reasonable and constituted sufficient probable
cause in the warrant affidavit for the issuance of an
arrest warrant. See Rodriguez v. Farrell, 280 F.3d 1341,
1347 (11th Cir. 2002) (finding that a mistake is reason­
able when the suspect and the plaintiff have critical
characteristics in common); see also Towns u. Beseler,
No. 3:15-cv-140-J-34JBT, 2016 WL 5933400, at *7
(M.D. Fla. Oct. 12,2016) (finding that a mistake is rea­
sonable when the officer relies on trustworthy infor­
mation, such as a valid ID, when writing an affidavit).
Plaintiff, however, argues there are two reasons
supporting his claim that Deputies Cruz and PinoDiaz unlawfully arrested him and deprived him of lib­
erty without probable cause. First, he asserts that they
filed their reports regarding the underlying crime de­
spite the fact that they knew (or should have known)
that the statutory requirements of the crime were not
met. Specifically, he says they acknowledged in the
4 Notably, Plaintiff does not argue that he does not look any­
thing like the individual who actually committed the crime; a fact
which if true could be used to show that Defendants did not actu­
ally have sufficient evidence or probable cause to seek an arrest
warrant.

App. 26
reports that they were on foot patrol and not in an au­
thorized law enforcement patrol vehicle, which is re­
quired by Florida statute to charge someone with
fleeing and eluding a law enforcement officer. ECF No.
34 at 3-4.
Plaintiff’s argument suffers from a fundamental
flaw in his interpretation of Florida law. Under the rel­
evant statute for the charge listed in the warrant affi­
davit, “it is unlawful for the operator of a vehicle,
having knowledge that he or she has been ordered to
stop such vehicle by a duly authorized law enforcement
officer, willfully to refuse or fail to stop the vehicle.” See
Fla. Stat. § 316.1935(1). It does not state the officer
must be in an authorized law enforcement patrol car.
Thus, it makes no difference whether Deputies Cruz
and Pino-Diaz were in a patrol vehicle. Deputies Cruz
and Pino-Diaz therefore are entitled to qualified im­
munity.
Second, Plaintiff argues Deputies Cruz and PinoDiaz unlawfully arrested him and deprived him of
liberty without probable cause when they acted negli­
gently in failing to take extra steps to confirm that he
was the driver of the car during the alleged fleeing and
eluding. For example, Plaintiff says that the officers
should have obtained fingerprints from the vehicle,
which would have shown that Plaintiff was not the
driver, or they should have attempted to contact him.
Plaintiff also argues that the license with his name on
it should not have been used as supporting evidence in
the report because it was thirteen years old. ECF No.
34 at 4-6.

App. 27
But the fact that the Defendant Deputies could
have done more and did not do so is insufficient to show
that they fabricated evidence or that they did not have
probable cause to support an arrest warrant. “Al­
though the law does not require ‘that every conceivable
step be taken, at whatever cost, to eliminate the possi­
bility of convicting an innocent person,’ due process
does require that some steps be taken to eliminate
doubts concerning identity that exist prior to obtaining
the warrant and arrest.” Tillman, 886 F.2d at 321
(quoting Baker v. McCollan, 443 U.S. 137 (1979)).
Here, Deputies Cruz and Pino-Diaz had no reason
to question Plaintiff’s identity prior to obtaining the
warrant because they found Plaintiff’s driver’s license
in the car and because they reasonably believed that
the driver of the vehicle was the same person pictured
in the driver’s license based on their limited interac­
tion with him. Because the Deputies had sufficient ev­
idence based on the license and their identification of
the driver, the Deputies had no reason to take addi­
tional steps to confirm Plaintiff’s identity, nor were
they required to. Deputy Cruz and Pino-Diaz’s mistake
in misidentifying Plaintiff was not so unreasonable or
plainly incompetent to deny them qualified immunity,
particularly where the Deputies found a driver’s li­
cense with Plaintiff’s picture on it in the case, and the
picture matched the identify [sic] of the individual
with whom the Deputies first encountered when they
initiated the traffic stop.
Because Deputies Cruz and Pino-Diaz were gov­
ernment officials performing discretionary functions

App. 28
and because Plaintiff failed to allege sufficient facts to
show that Deputies Cruz and Pino-Diaz violated any
of Plaintiff’s constitutional rights, Plaintiff has failed
to meet the burden of showing that qualified immunity
is inappropriate in this case. The Court, therefore, need
not consider whether the right was clearly established.
Accordingly, Defendants Cruz and Pino-Diaz are enti­
tled to qualified immunity.
D; Plaintiff’s Monell and defamation claims
should be dismissed.
In addition to the claims addressed by Defendants’
in their motion to dismiss, Plaintiff also purports to
bring a Monell claim against Alachua County Sheriff
Sadie Darnell in her official capacity and a defamation
claim against Deputies Cruz and Pino-Diaz. These
claims are also due to be dismissed for failure to state
a claim upon which relief may be granted.
With regard to Plaintiff’s Monell claim, Plaintiff
conclusionally alleges that Alachua County and the
Alachua County Sheriff maintain policies and prac­
tices that include a failure to adequately train, super­
vise, and discipline deputies. Plaintiff says that the
fabrication of evidence and the failure to dismiss the
false charges against Plaintiff took place pursuant to
such policies of the Alachua County Sheriff’s Office.
ECF No. 8 at 14. Plaintiff offers no details or facts iden­
tifying the training which was not provided or what
supervision and discipline Sheriff Darnell failed to pro­
vide.

App. 29
Under § 1983, a local governing body—such as
Alachua County, which is responsible for the Alachua
County Sheriff’s Office—can be sued only where “the
action that is alleged to be unconstitutional imple­
ments or executes a policy statement, ordinance, regu­
lation, or decision officially adopted and promulgated
by that body’s officers.” Monell v. Dep’t of Soc. Sec. of
City of New York, 436 U.S. 658, 690 (1978). To state a
Monell claim, a plaintiff must show: “(1) that his con­
stitutional rights were violated; (2) that the municipal­
ity had a custom or policy that constituted deliberate
indifference to that constitutional right; and (3) that
the policy or custom caused the violation.” McDowell u.
Brown, 392 F.3d 1283,1289 (11th Cir. 2004).
As discussed at length above, Plaintiff has failed
to establish the first element of a Monell claim because
he has failed to show that his constitutional rights
were violated. It follows that because Plaintiff has
failed to state a claim that his constitutional rights
were violated, Plaintiff cannot establish that Sheriff
Darnell maintained policies that constituted a deliber­
ate indifference to his constitutional rights. Thus,
Plaintiff’s Monell claim is due to be dismissed for fail­
ure to state a claim.
Lastly, with regard to Plaintiff’s defamation claim,
Plaintiff says that Deputy Cruz and Diaz-Pinero’s [sic]
fabrication of evidence and false arrest and imprison­
ment of Plaintiff resulted in the defamation of his char­
acter. Specifically, he says that their misconduct resulted
in the posting of his name and picture on Alachua

App. 30
County’s Most Wanted list for a crime that he did not
commit. ECF No. 8 at 15.
“Defamation encompasses both libel and slan­
der. . . . Slander is ordinarily confined to defamatory
spoken words, whereas libel pertains to defamatory
written statements.” Under Florida law, a claim for def­
amation requires that (1) the defendant published a
false statement, (2) about the plaintiff, (3) to a third
party, and (4) that the falsity of the statement caused
injury to the plaintiff.” Bass v. Rivera, 826 So. 2d 534,
535 (Fla. Dist. Ct. App. 2002); Fortson v. Colangelo, 434
F. Supp. 2d 1369,1378 & n.ll (S.D. Fla. 2006).
Plaintiff’s defamation claim against the Defend­
ant Deputies fails for two reasons. First, Plaintiff has
failed to allege that the Defendant Deputies were re­
sponsible for publishing a false statement. Instead, he
says that their conduct resulted in the publication of
his name and picture on Alachua County’s Most
Wanted list. Because he has not alleged that the De­
fendant Deputies had anything to do with actually
publishing the pictures, Plaintiff has not adequately
stated a defamation claim against them.
Second—and fatal to any claim of defamation—
Plaintiff has failed to allege that any false statement
was published about him. He only alleges that his pic­
ture was published on the most wanted list. True state­
ments and statements that are not readily capable of
being proven false are protected from defamation ac­
tion. Turner v. Wells, 879 F.3d 1254, 1262 (11th Cir.
2018) (citing Keller v. Miami Herald PubVg Co., 778

App. 31
F.2d 711, 714-15 (11th Cir. 1985)). The problem with
Plaintiff’s claim is that Alachua County’s Most Wanted
list contains information on individuals with outstand­
ing warrants. In this case, it is undisputed that there
was a warrant issued for Plaintiff’s arrest. Therefore
the publication of information that there was a war­
rant for Plaintiff’s arrest is not, as a matter of law, a
false statement.
In sum, because Plaintiff has failed to allege facts
sufficient to show that the Defendant Deputies were
responsible for the publication of a false statement
about Plaintiff, Plaintiff’s claim for defamation fails to
state a claim upon which relief may be granted. Ac­
cordingly, Plaintiff’s defamation claim should be dis­
missed.
V. RECOMMENDATION
In light of the foregoing, it is respectfully REC­
OMMENDED that:
Defendants’ Motion to Dismiss Plaintiff’s
Amended Complaint, ECF No. 29, should be
GRANTED, and Plaintiff’s complaint, ECF
No. 8, should be DISMISSED.
IN CHAMBERS this 13th day of July 2018.
/s/ Gary R. Jones
GARY R. JONES
United States
Magistrate Judge

App. 32
NOTICE TO THE PARTIES
Objections to these proposed findings and rec­
ommendations must be filed within fourteen (14)
days after being served a copy thereof. Any dif­
ferent deadline that may appear on the elec­
tronic docket is for the Court’s internal use only,
and does not control. A copy of objections shall
be served upon all other parties. If a party fails
to object to the magistrate judge’s findings or
recommendations as to any particular claim or
issue contained in a report and recommenda­
tion, that party waives the right to challenge on
appeal the district court’s order based on the un­
objected-to factual and legal conclusions. See
11th Cir. Rule 3-1; 28 U.S.C. § 636.

